No. 20-47

In the Supreme Court of the United States
LEBAMOFF ENTERPRISES, INC., ET AL., PETITIONERS
v.
GRETCHEN WHITMER, ET AL., RESPONDENTS
ON PETITION FOR A WRIT OF CERTIORARI

TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

BRIEF IN OPPOSITION
Dana Nessel
Michigan Attorney General
Fadwa A. Hammoud
Solicitor General
Counsel of Record
P.O. Box 30212
Lansing, Michigan 48909
HammoudF1@michigan.gov
(517) 335-7628
Mark G. Sands
Donald S. McGehee
Melinda A. Leonard
Assistant Attorneys General
Alcohol & Gambling
Enforcement Division
Attorneys for Respondents

i
QUESTION PRESENTED
1. Did the Sixth Circuit Court of Appeals correctly
apply the “different inquiry” that Tennessee Wine &
Spirits Retailers Ass’n v. Thomas, ___ U.S. ___; 139 S.
Ct. 2449 (2019), requires to be applied to Commerce
Clause cases involving alcohol regulations?

ii
PARTIES TO THE PROCEEDING
Petitioners are Lebamoff Enterprises, Inc., its
part-owner and general manager, Joseph Doust, and
three Michigan wine consumers—Jack Stride, Jack
Schultz, and Richard Donovan.
Respondents are Gretchen Whitmer, Governor of
the State of Michigan; Dana Nessel, Michigan Attorney General; Pat Gagliardi, Chairperson of the Michigan Liquor Control Commission; and the Michigan
Beer & Wine Wholesalers Association, which was the
intervening defendant below.

iii
TABLE OF CONTENTS
Question Presented...................................................... i
Parties to the Proceeding ........................................... ii
Table of Authorities ................................................... iv
Opinions Below ........................................................... 1
Jurisdiction ................................................................. 1
Constitutional and Statutory Provisions Involved .... 1
Introduction ................................................................ 4
Statement of the Case ................................................ 5
Reasons for Denying the Petition............................. 10
I.

The Sixth Circuit’s decision does not conflict
with decisions of other circuits. ......................... 10

II. The Sixth Circuit’s decision does not conflict
with this Court’s precedent. ............................... 12
Conclusion ................................................................. 21

iv
TABLE OF AUTHORITIES
Cases
Bacchus Imports, Ltd. v. Dias,
468 U.S. 263 (1984) ............................ 7, 15, 16, 18
Byrd v. Tennessee Wine & Spirits Retailers Ass’n,
883 F. 3d 608 (6th Cir. 2018) ......................... 6, 10
Cooper v. Texas Alcoholic Beverage Comm’n,
820 F.3d 730 (5th Cir. 2016) .............................. 11
Granholm v. Heald,
544 U.S. 460 (2005) ............................ 7, 16, 17, 18
Heald v. Engler,
342 F.3d 517 (6th Cir. 2003) .............................. 16
Lebamoff Enterprises, Inc. v. Rauner,
909 F.3d 847 (7th Cir. 2018) ........................ 10, 11
North Dakota v. United States,
495 U.S. 423 (1990) ............................................ 19
Tennessee Wine & Spirits Retailers Ass’n v.
Thomas,
___ U.S. ___; 139 S. Ct. 2449 (2019) .......... passim

Statutes
28 U.S.C. § 1254(1) ..................................................... 1
Mich. Comp. Laws § 436.1203 ................................ 2, 6
Mich. Comp. Laws § 436.1203(1) ............................... 6
Mich. Comp. Laws § 436.1901(1) ............................... 6
Mich. Comp. Laws § 436.1901(3) ............................... 6

v
Mich. Comp. Laws § 436.1901(4) ............................... 6
Mich. Comp. Laws § 436.1901(6) ............................... 6
Rules
Sup. Ct. R. 10 .................................................. 5, 10, 12
Constitutional Provisions
U.S. Const. art. I, § 8, cl. 3...................................... 1, 6
U.S. Const., amend. XXI, § 2 ........................ 1, 4, 5, 17

1
OPINIONS BELOW
Petitioners seek review of the Sixth Circuit Court
of Appeals’ decision in Lebamoff Enterprises, Inc. v.
Whitmer, which is reported at 956 F.3d 863. The decision of the United States District Court for the Eastern District of Michigan is reported at 347 F. Supp. 3d
301.
JURISDICTION
Respondents agree that Petitioners timely filed a
petition for a writ of certiorari and that this Court has
jurisdiction over the petition under 28 U.S.C.
§ 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The relevant constitutional and statutory provisions are:
U.S. Const. art. I, § 8, cl. 3:
The Congress shall have Power . . . To regulate Commerce with foreign Nations, and
among the several States, and with the Indian
Tribes.
U.S. Const., amend. XXI, § 2:
The transportation or importation into any
State, Territory, or possession of the United
States for delivery or use therein of intoxicating liquors, in violation of the laws thereof, is
hereby prohibited.

2
Mich. Comp. Laws § 436.1203:
(1) Except as provided in this section and
section 301, a person shall not sell, deliver, or
import alcoholic liquor, including alcoholic liquor for personal use, in this state unless the
sale, delivery, or importation is made by the
commission, the commission’s authorized
agent or distributor, an authorized distribution agent approved by order of the commission, a person licensed by the commission, or
by prior written order of the commission.
***
(3) For purposes of subsection (1), a retailer
that holds a specially designated merchant license located in this state may use a common
carrier to deliver wine to a consumer in this
state. . . .
***
(12) A retailer that holds a specially designated merchant license, a brewpub, a micro
brewer, or an out-of-state entity that is the
substantial equivalent of a brewpub or micro
brewer may deliver beer and wine to the home
or other designated location of a consumer in
this state . . . .
(13) A retailer that holds a specially designated merchant license may use a third party
that provides delivery service to municipalities in this state that are surrounded by water
and inaccessible by motor vehicle to deliver

3
beer and wine to the home or other designated
location of that consumer . . . .
(14) A retailer that holds a specially designated distributor license may deliver spirits to
the home or other designated location of a consumer in this state . . . .
(15) A retailer that holds a specially designated merchant license located in this state
may use a third party facilitator service by
means of the internet or mobile application to
facilitate the sale of beer or wine to be delivered to the home or designated location of a
consumer . . . .
(16) A retailer that holds a specially designated distributor license located in this state
may use a third party facilitator service
by means of the internet or mobile application
to facilitate the sale of spirits to be delivered
to the home or designated location of a consumer . . . .

4
INTRODUCTION
The Twenty-first Amendment allows states to
control alcohol importation and distribution within
their borders through a three-tier system. In 2016, the
Michigan Legislature amended the Michigan Liquor
Control Code (Code) to allow certain licensed retailers
within Michigan’s three-tier system to ship or deliver
alcohol to Michigan consumers.
While this case was pending before the United
States Court of Appeals for the Sixth Circuit, this
Court issued its decision in Tennessee Wine & Spirits
Retailers Ass’n v. Thomas, ___ U.S. ___; 139 S. Ct.
2449 (2019). The analysis in Tennessee Wine examined precedent concerning the interplay between the
Twenty-first Amendment and the Commerce Clause.
Id. at 2462–74. Based on that review, this Court recognized that alcohol regulations are subject to a “different inquiry” from other regulations challenged under the Commerce Clause; if alcohol regulations are
discriminatory, this Court asks “whether the challenged requirement can be justified as a public health
or safety measure or on some other legitimate nonprotectionist ground.” Id. at 2474. Such regulations are
saved by § 2 of the Twenty-first Amendment if the
“predominant effect” of the regulation is “the protection of public health or safety[.]” Id. The Sixth Circuit
applied Tennessee Wine and upheld the challenged
statute as a valid exercise of State power under § 2 of
the Twenty-first Amendment. Pet. App. 6a, 15a–19a.
Petitioners and their amici assert two bases for
this Court to grant review. Neither withstands scrutiny.

5
First, they contend that the Sixth Circuit’s decision conflicts with two cases decided before Tennessee
Wine. Those cases do not address the relevant issue—
applying the “different inquiry” from Tennessee Wine.
Second, Petitioners ask this Court to correct a perceived error in the Sixth Circuit’s decision. Not only
do Petitioners inaccurately describe the Sixth Circuit’s opinion, they fail to demonstrate any error. Critically, Petitioners all but ignored Tennessee Wine in
their briefing before the Sixth Circuit, instead insisting that alcohol regulations are subject to the same
strict-scrutiny test as other regulations challenged on
Commerce Clause grounds. Petitioners continue down
the wrong path in this Court, failing to even mention
the “different inquiry” that Tennessee Wine requires
for examining alcohol regulations. Petitioners still fail
to acknowledge that Tennessee Wine, 139 S. Ct. at
2474, allows a discriminatory alcohol regulation to be
saved by § 2 of the Twenty-first Amendment if its predominant effect is protection of public health or safety.
Their argument is not that the Sixth Circuit applied
the Tennessee Wine “different inquiry” in an incorrect
manner. Instead, they argue that the Sixth Circuit
should have applied strict scrutiny, as though the
Tennessee Wine “different inquiry” did not exist.
Because Petitioners fail to demonstrate a “compelling reason” under Rule 10 for this Court to grant certiorari, this Court should deny the petition.
STATEMENT OF THE CASE
The Code and the Michigan Liquor Control Commission’s (MLCC) administrative rules regulate

6
alcohol importation and distribution in Michigan.
Like many states, Michigan controls alcohol sales
through a three-tier system of licensed suppliers,
wholesalers, and retailers. Retailers selling alcohol to
consumers located in Michigan must purchase that alcohol from the State or a state-licensed wholesaler in
almost
all
instances.
Mich.
Comp.
Laws
§§ 436.1203(1); 436.1901(1), (3), (4), (6). In late 2016,
the Michigan Legislature amended Mich. Comp. Laws
§ 436.1203 to permit certain MLCC-licensed retailers
located in Michigan to ship or deliver wine and other
forms of alcohol to Michigan consumers.
The principal petitioner, Lebamoff Enterprises, is
an Indiana wine retailer that is not licensed by the
MLCC and does not obtain its alcohol products from a
licensed Michigan wholesaler. Therefore, the Code
prohibits Lebamoff Enterprises from shipping alcohol
directly to Michigan consumers. Three of the individual petitioners are Michigan wine consumers who
wish to receive shipments from Lebamoff Enterprises.
Petitioners hope to bypass Michigan’s three-tier system, so they sued Michigan, challenging its new law
under the dormant aspect of the Commerce Clause,
U.S. Const. art. I, § 8, cl. 3.
After discovery, the parties filed cross-motions for
summary judgment. The State and intervening defendant submitted affidavits and other evidence
demonstrating that the distinction between in-state
and out-of-state retailers serves numerous health and
safety goals closely related to the powers reserved by
the Twenty-first Amendment, under the then-prevailing standard in Byrd v. Tennessee Wine & Spirits Retailers Ass’n, 883 F. 3d 608, 616–22 (6th Cir. 2018).

7
But the district court granted Petitioners’ motion for
summary judgment, concluding that the law was discriminatory and that it was not saved by the Twentyfirst Amendment because the State failed to establish
that it advanced a legitimate local purpose that could
not be adequately served by reasonable alternatives.
Pet. App. 39a–43a.
While the State’s appeal of the district court’s decision was pending, this Court issued its decision in
Tennessee Wine. That decision thoroughly examined
the interplay between the Commerce Clause and the
Twenty-first Amendment and analyzed cases such as
Granholm v. Heald, 544 U.S. 460 (2005), and Bacchus
Imports, Ltd. v. Dias, 468 U.S. 263 (1984). Based on
its precedent, this Court held that Commerce Clause
cases involving discriminatory alcohol regulations are
subject to a “different inquiry” because of the Twentyfirst Amendment. Tennessee Wine, 139 S. Ct. at 2474.
If the “predominant effect” of the discriminatory law
is “the protection of public health or safety” rather
than protectionism, the law is shielded by the Twentyfirst Amendment. Id.
On appeal, the State and intervening defendant
argued that Michigan’s retailer-delivery law satisfied
the Tennessee Wine standard. Among other things, the
State contended that the requirement for physical instate retailer presence and the requirement for alcohol to first be sold to an in-state wholesaler enabled
licensee oversight and regulatory inspections of alcohol—unlike the durational-residency requirement on
retail license holders struck down in Tennessee Wine.
See Tennessee Wine, 139 S. Ct. at 2475 (recognizing
that retail stores’ in-state location enabled

8
“monitor[ing] the stores’ operations through on-site
inspections, audits, and the like”).
Significantly, Petitioners did not argue that the
law was invalid under the “different inquiry” in Tennessee Wine. Rather, they improperly asserted that
the Michigan law should be subject to strict scrutiny
in the same manner as laws unrelated to alcohol regulation. Pet. App. 15a.
The Sixth Circuit properly applied Tennessee
Wine’s “different inquiry.” Pet. App. 6a. The Sixth Circuit began its analysis by assuming that the law was
discriminatory. Pet. App. 8a–9a. The court recognized
that the law serves “plenty of legitimate state interests” and that “any limits on a free market of alcohol
distribution flow from the kinds of traditional regulations that characterize this market, not state protectionism.” Pet. App. 9a.
The Sixth Circuit further observed that allowing
out-of-state retailers to deliver alcohol into Michigan
would “create a sizable hole in the three-tier system”
that would, in turn, permit alcohol to be imported into
Michigan without passing through its wholesaler tier.
Pet. App. 12a. Eliminating the wholesaler tier would
harm the State’s interest in controlling consumption.
Id. at 12a–13a.
The court also recognized that creating such a
hole in Michigan’s three-tier system would leave
Michigan with the same problem that pre-Prohibition
dry states faced—out-of-state producers dodging state
restrictions with direct-to-consumer deliveries. Id. at
14a. The court said that the Webb-Kenyon Act, the
model for § 2 of the Twenty-first Amendment, fixed

9
that problem, but “Lebamoff’s lawsuit is nothing less
than an effort to re-create [it].” Id. (citing Tennessee
Wine, 139 S. Ct. at 2466–67). Further, in this case, the
State “could not maintain a three-tier system, and the
public-health interests the system promotes, without
barring direct deliveries from outside its borders.” Pet.
App. 15a.
The court concluded by recognizing that while
there may be policy reasons for loosening state regulation of alcohol in the internet-era, “the Twenty-first
Amendment leaves these considerations to the people
of Michigan, not to federal judges.” Pet. App. 19a.
Although joining Judge Sutton’s opinion of the
court, Judge McKeague issued a concurrence, stating
that “Michigan has presented enough evidence, which
[Petitioners] have not sufficiently refuted, to show its
in-state retailer requirement serves the public
health.” Pet. App. at 22a (McKeague, J., concurring).
While expressing “reservations,” he ultimately concluded that Petitioners had not shown that Michigan’s
“public health concerns are ‘mere speculation’ or ‘unsupported assertions,’ or that the ‘predominant effect’
of the in-state retailer requirement is not the protection of public health.” Id. at 27a (citing Tennessee
Wine, 139 S. Ct. at 2474). Judge Donald joined both
opinions.
The Sixth Circuit denied Petitioners’ subsequent
petition for rehearing en banc. Pet. App. 46a.

10
REASONS FOR DENYING THE PETITION
I.

The Sixth Circuit’s decision does not conflict
with decisions of other circuits.

The petition fails to establish a circuit split
providing a “compelling reason” to grant certiorari under Rule 10. Petitioners argue that the Sixth Circuit’s
decision conflicts with the Seventh Circuit’s analysis
in Lebamoff Enterprises, Inc. v. Rauner, 909 F.3d 847
(7th Cir. 2018). Crucially, however, Rauner was decided before this Court decided Tennessee Wine and
cannot, therefore, conflict with the Sixth Circuit’s application of Tennessee Wine.
Moreover, Petitioners misunderstand Rauner. At
issue there was whether the nondiscrimination principle of Granholm applied to the wholesaler and retailer tiers of the three-tier system at all. Rauner, 909
F.3d at 855. The Seventh Circuit reversed the district
court’s dismissal at the pleadings stage, holding that
Granholm did not support treating the wholesaler and
retailer tiers of the three-tier system differently than
the producer tier. Id. at 854–55. But the Seventh Circuit did not decide whether the challenged retailer-delivery statute violated the Commerce Clause. Rather,
it remanded the case for discovery to allow the district
court to consider whether that law was “necessitated
by permissible Twenty-first Amendment interests[.]”
Id. at 856.
Notably, the Sixth and Seventh Circuits were not
even split on the issue actually decided in Rauner. The
Sixth Circuit had already declined to limit Granholm
to the producer tier in Byrd, 883 F. 3d at 616–22, and

11
Rauner cited Byrd to support its conclusion. See
Rauner, 909 F.3d at 855 (citing Byrd, 883 F.3d at 621).
Amici 23 Wine Consumers also attempt to manufacture a circuit split based on a Fifth Circuit case decided before Tennessee Wine—Cooper v. Texas Alcoholic Beverage Comm’n, 820 F.3d 730 (5th Cir. 2016)
(Cooper II). Amici 23 Wine Consumers br. at 10. Their
argument fares no better. Like Rauner, Cooper II cannot conflict with the Sixth Circuit’s application of Tennessee Wine. Additionally, Cooper II is merely another
decision declining to limit Granholm to the producer
tier, id. at 742, like Rauner and Byrd.
Not only do Rauner and Cooper II not conflict with
the Sixth Circuit’s opinion, Tennessee Wine definitively resolved the question they examined. Tennessee
Wine held that Granholm applies to the wholesaler
and retailer tiers of the three-tier system, concluding
that there is “no sound basis” for an argument that a
different rule applies to in-state alcohol distribution.
Tennessee Wine, 139 S. Ct. 2470–71. That conclusion
is not disputed in this case.
No circuit split exists on the question actually before this Court—whether the Sixth Circuit properly
chose to apply the “different inquiry” articulated in
Tennessee Wine. Although some pending cases involve
the application of Tennessee Wine, Pet. at 8, it would
be premature for this Court to examine how Tennessee
Wine applies just one year after it was decided, instead of allowing the circuits to consider the question.
Waiting for the issue to percolate is particularly merited here because Tennessee Wine instructed that
“each variation [of a three-tiered system] must be
judged based on its own features.” 139 S. Ct. at 2472.

12
What one circuit has said about one state’s retailerdelivery law may not apply to other variations of
three-tiered systems.
II. The Sixth Circuit’s decision does not conflict
with this Court’s precedent.
Stripped of the illusory circuit conflict, the petition rests only on Petitioners’ dissatisfaction with the
Sixth Circuit’s decision. “A petition for a writ of certiorari is rarely granted” in such a circumstance. Sup.
Ct. R. 10. And the Sixth Circuit’s correct application
of the “different inquiry” that Tennessee Wine requires, see Pet. App. 6a, 9a, falls far short of the rare
error-assertion case that merits this Court’s review.
Even so, the petition fails to demonstrate error.
Petitioners begin by misarticulating the Sixth Circuit’s holding. They contend that “[t]he Sixth Circuit
held that the Twenty-first Amendment gives states
the authority to regulate wine sales regardless of
whether those regulations discriminate against outof-state interests . . . and immunizes those laws from
being challenged under the Commerce Clause.” That
is incorrect. The Sixth Circuit did not announce a new
rule of law; it applied the rule that Tennessee Wine
discerned from prior cases like Bacchus and
Granholm—that, in fact, discriminatory alcohol regulations can be saved from invalidation under the Commerce Clause based on § 2 of the Twenty-first Amendment depending on the regulations’ predominant effect. Tennessee Wine, 139 S. Ct. at 2474.
At issue in Tennessee Wine was Tennessee’s durational-residency requirement for a retail liquor-

13
license holder. Id. at 2456. This Court recognized that
the durational-residency requirement “plainly favors
Tennesseans over nonresidents[.]” Id. at 2461–62. But
that alone did not trigger applying strict scrutiny, as
Petitioners urge. Under Petitioners’ theory, the opinion could have quickly concluded—a discriminatory
liquor law receives strict scrutiny. Full stop. But that
was not the end of this Court’s opinion.
After analyzing caselaw interpreting the interplay between the Commerce Clause and § 2 of the
Twenty-first Amendment, this Court acknowledged
that the discriminatory two-year residency requirement “could not be sustained if it applied across the
board to all those seeking to operate any retail business in the State.” Id. at 2474 (citations omitted). Applying strict scrutiny would have sounded the death
knell for the residency requirement if it had applied
across the board.
But because the durational-residency requirement did not apply across the board and applied only
to alcohol retailers, the mere presence of discrimination did not trigger strict scrutiny. “[B]ecause of § 2,
we engage in a different inquiry.” Id. at 2474. This
Court then articulated that “different inquiry”:
[W]e ask whether the challenged requirement
can be justified as a public health or safety
measure or on some other legitimate nonprotectionist ground. . . . Where the predominant
effect of the law is protectionism, not the protection of public health or safety, it is not
shielded by § 2.
Id.

14
In other words, this Court concluded that a discriminatory alcohol law is subject to strict scrutiny
only if its predominant effect is economic protectionism. If protection of public health or safety predominates, then the law—even if discriminatory—is protected by the Twenty-first Amendment. Id.
Applying this test to the durational-residency requirement, this Court held that the law had “at best a
highly attenuated relationship to public health or
safety.” Id. For example, this Court disagreed that the
durational-residency law was necessary to maintain
oversight over liquor store operators. Id. at 2475. Specifically, this claim was not persuasive because:
the stores at issue are physically located
within the State. For that reason, the State
can monitor the stores’ operations through onsite inspections, audits, and the like. . . .
Should the State conclude that a retailer has
“fail[ed] to comply with state law,” it may revoke its operating license. Granholm, 544 U.S.
at 490[]. This “provides strong incentives not
to sell alcohol” in a way that threatens public
health or safety. Ibid.
Id. at 2475.
Ultimately, this Court concluded that the predominant effect of the durational-residency requirement
was to protect in-state residents from out-of-state
competition. Because the requirement was not
shielded by the Twenty-first Amendment and did not
survive strict scrutiny, this Court affirmed the Sixth
Circuit’s decision invalidating the law. Id. at 2474–76.

15
Significantly, Petitioners do not mention Tennessee Wine’s “different inquiry” at all, instead arguing
that strict scrutiny applies in the same manner as it
applies in any other Commerce Clause case involving
a discriminatory law. And the phrases “public health”
and “predominant effect” do not appear in the petition. Petitioners do not contend that the Sixth Circuit
incorrectly applied the “different inquiry.” They
simply ignore its existence.
But as this Court explained in Tennessee Wine, its
decision to apply a “different inquiry” in light of § 2
flows directly from both Bacchus and Granholm and
is consistent with the Webb-Kenyon Act, which was
the model for § 2 of the Twenty-first Amendment. Petitioners extensively quote those cases, but they fail to
recognize the nuances and distinctions that led this
Court to hold in Tennessee Wine that strict scrutiny
does not automatically apply to discriminatory liquor
laws because of § 2 of the Twenty-first Amendment.
There is no dispute here that “[t]he central purpose of [§ 2 of the Twenty-first Amendment] was not
to empower States to favor local liquor industries by
erecting barriers to competition.” Bacchus, 468 U.S. at
276. In Bacchus, the tax exemption at issue was held
discriminatory because Hawaii clearly intended to favor local products by exempting them from taxation;
the state’s interest in subsidizing a financially troubled local industry was not sufficient to permit that
intentional discrimination. Id. at 270–73.
But because of the Twenty-first Amendment, this
Court continued its analysis. It recognized that even
a discriminatory alcohol regulation could be upheld if
it was “so closely related to the powers reserved by the

16
Twenty-first Amendment that the regulation may
prevail, notwithstanding that its requirements directly conflict with express federal policies.” Id. at
275–76. Petitioners’ argument—that strict scrutiny
always applies—cannot survive that aspect of Bacchus.
The regulation in Bacchus was ultimately invalidated. By Hawaii’s own admission, however, the exemption was not designed to promote temperance,
control the import of alcohol into the state, or serve
any other traditional Twenty-first Amendment purpose. Id. at 275. Rather, it was designed to protect a
local alcoholic beverage industry. Id. Thus, the exemption was struck down because it was discriminatory
and constituted “mere economic protectionism.” Id. at
276. Therefore, the exemption was not saved by the
Twenty-first Amendment. Id.
The same approach was adopted in Granholm. At
issue in Granholm were discriminatory laws from
Michigan and New York that allowed only in-state
wineries to bypass the three-tier system and ship wine
directly to consumers. Granholm, 544 U.S. at 466–67.
In light of Bacchus, the Sixth Circuit had rejected
Michigan’s argument that all state liquor laws are
shielded by the Twenty-first Amendment from Commerce Clause scrutiny. Id. at 470 (citing Heald v. Engler, 342 F.3d 517 (6th Cir. 2003)).
Although the Granholm Court ultimately concluded that not all liquor laws are protected by the
Twenty-first Amendment, see id. at 488, it did not
contradict Bacchus and hold that no liquor laws can
be saved by the Twenty-first Amendment. Just as in
Bacchus, the Granholm Court analyzed whether the

17
laws at issue—exceptions to the three-tier system—
were consistent with the Twenty-first Amendment’s
purpose. This Court examined the history of pre-Prohibition laws limiting the importation of alcohol into
“dry” states. Id. at 476–87. Of particular note were the
Wilson Act, which allowed states to regulate imported
liquor to the same extent and in the same manner as
domestic liquor; and the Webb-Kenyon Act, which forbade shipment or transportation of alcohol into a state
where it runs afoul of the state’s generally applicable
laws governing receipt, possession, sale, or use. Id. at
478, 482 (citations omitted).
Granholm reiterated that the language of § 2
closely followed the Wilson and Webb-Kenyon Acts
and discerned that § 2 was intended to “allow States
to maintain an effective and uniform system for controlling liquor by regulating its transportation, importation, and use.” Id. at 484. But § 2 “did not give states
the authority to pass nonuniform laws in order to discriminate against out-of-state goods, a privilege they
had not enjoyed at any earlier time.” Id. at 484–85.
Nevertheless, Granholm determined that New
York and Michigan had done just that—created nonuniform exceptions to the three-tier system in order to
discriminate against out-of-state wineries. Id. at 486–
89. Like the tax law in Bacchus, the three-tier exceptions were both discriminatory and protectionist and,
thus, were not protected by the Twenty-first Amendment. Id. at 489. Petitioners wrongly assert that
Granholm held that any discriminatory state liquor
law is not saved by the Twenty-first Amendment. Pet.
at 9. On the contrary, it held that the laws at issue in

18
that case (which were unlike the law at issue in this
case) were not saved by the Twenty-first Amendment.
Thus, this Court’s precedents do not require that
strict scrutiny always applies to a discriminatory liquor law. Rather, they explain that strict scrutiny may
or may not apply, depending on the provision’s effects.
Tennessee Wine clarified that a three-step analysis applies to alcohol regulations challenged under the
dormant Commerce Clause.
The first step is to ask whether the law is discriminatory in nature. Bacchus, 468 U.S. at 273;
Granholm, 544 U.S. at 473–76; Tennessee Wine, 139
S. Ct. at 2461–62. If so, the second step is to conduct
the “different inquiry” to determine whether the law
is saved by § 2 of the Twenty-first Amendment. Tennessee Wine, 139 S. Ct. at 2474. If the evidence shows
that protection of public health or safety is the law’s
predominant effect, then the regulation is saved by
the Twenty-first Amendment and no further analysis
is necessary. If the predominant effect of the law is
economic protectionism rather than public health or
safety, the third step is to apply the traditional strictscrutiny test. Granholm, 544 U.S. at 489.
That is the process the Sixth Circuit used to analyze this case. First, the court assumed for purposes of
its opinion that Michigan’s retailer-delivery statute is
discriminatory. 1 Pet. App. 8a–9a. Second, the Sixth
1

The State has argued throughout the case that its retailer-delivery statute is not discriminatory because in-state and out-ofstate retailers are not similarly situated for Commerce Clause
purposes. Pet. App. 8a–9a. The Sixth Circuit did not decide this
issue. Id. Thus, even if this Court were to grant certiorari and

19
Circuit conducted the “different inquiry” that Tennessee Wine requires, analyzing whether the predominant effect of the statute is protecting public health or
safety or engaging in economic protectionism. In so doing, the court noted that the challenged law serves an
important role in protecting public health and
safety—such as by promoting temperance and controlling the flow of alcohol into the state. Pet. App. 9a–10a
(lead opinion); 22a–23a (McKeague, J., concurring).
More specifically, the Sixth Circuit saw that allowing an out-of-state retailer like Lebamoff to deliver
to Michigan customers would allow alcohol to avoid
the wholesaler tier of the three-tier system. Pet. App.
12a. The court explicitly recognized that Michigan’s
taxation and pricing scheme, implemented significantly through the wholesaler tier, serves a vital public safety function by ensuring alcohol is not sold at
such a low price that it stimulates overconsumption.
Id. With close to 2,000 retailers already in the digital
marketplace, there is no mechanism through which
the State could maintain its pricing scheme. See id. at
12a–13a. Thus, the court agreed that allowing out-ofstate retailers to deliver into Michigan would create
“a ‘substantial’ risk that out-of-state alcohol will get
‘diver[ted] into the retail market[,] . . . disrupti[ng] the
[alcohol] distribution system’ and increasing alcohol
consumption.” Id. (quoting North Dakota v. United
States, 495 U.S. 423, 433 (1990) (plurality opinion)).

hold that the Sixth Circuit misapplied Tennessee Wine, the State
would still be entitled to a remand to the Sixth Circuit to decide
the “similarly situated” argument. For that reason, this case is a
poor vehicle for review of Tennessee Wine, and this Court should
deny the petition on that ground.

20
Because the Sixth Circuit concluded that the retailer-delivery statute has the predominant effect of
protecting public health or safety, the statute constitutes permissible discrimination, and the Sixth Circuit did not need to complete the third step of applying
strict scrutiny to the statute.
Again, the petition does not argue that the Sixth
Circuit misapplied Tennessee Wine’s “different inquiry.” Rather, it ignores it altogether. But the Sixth
Circuit applied the test this Court articulated in
Tennessee Wine and it reached the correct result. As
such, there is no error, and this Court should deny the
petition for a writ of certiorari.

21
CONCLUSION
The Petition for a Writ of Certiorari should be denied.
Respectfully submitted,
Dana Nessel
Michigan Attorney General
Fadwa A. Hammoud
Solicitor General
Counsel of Record
Mark G. Sands
Donald S. McGehee
Melinda A. Leonard
Assistant Attorneys General
Alcohol & Gambling
Enforcement Division
Attorneys for Respondents
Dated: NOVEMBER 9, 2020

